Case No. 20-606

IN THE SUPREME COURT
OF THE UNITED STATES OF AMERICA
TATYANA E. DREVALEVA,
Petitioner,
VS.

DEPARTMENT OF INDUSTRIAL RELATIONS OF THE STATE OF
CALIFORNIA
Respondent

On Petition for Writ of Certiorari to the California Supreme Court
Alameda County Superior Court, case No. RG17881790
Court of Appeal for the First District, Division Four
Appeal No. A155165, A155187, A155899 (consolidated)
\

The California Supreme Court, Petition for Review S260407 - denied
The California Supreme Court, Petition for Writ of Mandate S260480 - denied
The California Supreme Court Petition for Writ of Mandate S262066 - denied

CERTIFICATE, Rules of the U.S. Supreme Court, Rule 44(2.)
Tatyana E. Drevaleva, Petitioner Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@gmail.com
Page 1 of 3

I am certifying that this Petition for Rehearing is restricted to the grounds
specified in the Rules of the U.S. Supreme Court, Rule 44(2) and that this Petition for
Rehearing is presented in good faith and not for delay.
The grounds for this Petition for Rehearing are limited to intervening
circumstances of a substantial or controlling effect or to other substantial grounds not
previously presented.
The facts that I discovered after filing my Petition for Writ of Certiorari No. 20606 clearly demonstrated that the Narayan Travelstead Professional Law Corporation was
not authorized to represent client Alameda Health System in any lawsuit, Appeal, and
Petition. The facts that I discovered after filing my Petition for Writ of Certiorari clearly
demonstrated that all California Courts knew that the NTPC was not authorized to
represent client AHS, and therefore all California Courts intentionally and maliciously
entered Judgments in favor of DIR, AHS, and the NTPC as a manifest of a criminal
conspiracy with these Defendants, and this conspiracy was aimed to intentionally prevent
me from obtaining relief.

I declare under the penalty of perjury and under the Federal laws and under the
laws of the State of California that all foregoing is true and correct. Executed at San
Francisco, CA on January 07, 2020.

Page 2 of 3

Respectfully submitted,

s/ Tatyana Drevaleva
Petitioner-Appellant Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@gmail.com
Date: January 07, 2020

Page 3 of 3

Case No. 20-606

IN THE SUPREME COURT
OF THE UNITED STATES OF AMERICA
TATYANA E. DREVALEVA,
Petitioner,
VS.

DEPARTMENT OF INDUSTRIAL RELATIONS OF THE STATE OF
CALIFORNIA
Respondent

On Petition for Writ of Certiorari to the California Supreme Court
Alameda County Superior Court, case No. RG17881790
Court of Appeal for the First District, Division Four
Appeal No. A155165, A155187, A155899 (consolidated)
The California Supreme Court, Petition for Review S260407 - denied
The California Supreme Court, Petition for Writ of Mandate S260480 - denied
The California Supreme Court Petition for Writ of Mandate S262066 - denied

PETITION FOR REHEARING
Tatyana E. Drevaleva, Petitioner Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@gmail.com
Page 1 of 16

On April 15, 2020, the California Supreme Court denied my Petition for Review
No. S260407 of the December 20, 2019 unpublished Opinion of the California Court of
Appeal for the First District, Division Four in Appeal No. A155165, A155187, A155899
(consolidated) that affirmed all fraudulent Orders of the Superior Court of Alameda
County in case No. RG17881790 Drevaleva v. Department of Industrial Relations of the
State of California. On January 16, 2020, the Hon. Justice Jon Streeter denied my Petition
for Rehearing and recklessly disregarded my valid legal arguments. On April 15, 2020,
the California Supreme Court denied my Petition for Review No. S260407 and denied
my Petition for Writ of Mandate No. S260480.
On August 31, 2020, the Court of Appeal for the First District, Division Four
declared me a vexatious litigant pursuant to C.C.P, § 391(b)(1) - (3.) I moved for
reconsideration. On September 28, 2020, the Court of Appeal for the First District,
Division Four withdrew its August 31, 2020 Order and entered a new Order that declared
me a vexatious litigant pursuant to C.C.P, § 391(b)(3.)
On October 08, 2020, I diligently and in good faith moved for reconsideration of
the September 28, 2020 Order that declared me a vexatious litigant. On October 11, 2020,
I filed an “Additional Information to my Motion for Reconsideration of the September
28,2020 Order that declared me a vexatious litigant pursuant to C.C.P. § 391(b)(3.)”
On October 12, 2020, I filed a “SECOND ADDITIONAL INFORMATION TO
MY MOTION FOR RECONSIDERATION OF THE SEPTEMBER 28, 2020 ORDER
THAT DECLARED ME A VEXATIOUS LITIGANT PURSUANT TO C.C.P.
Page 2 of 16

§391(b)(3).” In this document, I listed the following valid legal argument, “Previously, I
already discussed that Governmental Entity the California Department of Industrial
Relations was not eligible to claim Governmental immunity pursuant to Government
Code Section 820.2, 821.6, 815.2(b), and 818.8 for ministerial acts of omission, and DIR
was not eligible to claim privilege pursuant to Civil Code Section 47(b.)
In my previous filings, I cited labor Code Section 98.7(b) that mandated Deputy of
the Labor Commissioner Ms. Catherine Daly to do the following, where appropriate:
1) To interview a claimant and a respondent
2) To interview witnesses
3) To review the documents.
Also, Section 98.7(b) mandated Deputy Daly (without the phrase “where
appropriate”) to include the material pieces of the evidence that were obtained during the
investigation of my retaliation and unlawful termination claim into her Investigative
Report. In fact, the Investigative report didn’t contact any material pieces of evidence
from AHS and didn’t contain any interviews with the claimant, the respondent, and the
witnesses.
Labor Code Section 98.7(e) mandated Deputy Daly (without the phrase “where
appropriate”) to complete the investigation of my retaliation and unlawful termination
claim and to provide me with DIR’s Determination within 60 days. Instead, Deputy Daly
conducted an extremely “thorough” investigation of my retaliation and unlawful

Page 3 of 16

termination claim for the whole 3 years and 4 months, and Daly dismissed my claim
asserting that I had acknowledged myself that I had committed medical negligence
towards the patient, and this is why I was fired from AHS.
Labor Code Section 98 mandated Deputy of the Labor Commissioner Mr. Bobit
Santos (without the phrase “where appropriate”) who was assigned to investigate my
wage claim to notify me within 30 days whether DIR would conduct an investigative
hearing regarding my wage claim. Deputy Santos never did it.
Supervisors Healy and Rood adopted Daly’s fraudulent assertions that I had
confirmed myself that I had committed medical negligence, and this is why I was fired
from AHS. Supervisors Healy and Rood never cared that Daly investigated my retaliation
and unlawful termination claim for 3 years and 4 months, that I was thrown into misery
for all these years, and Healy and Rood signed the Investigative Report. On December
29, 2016, Rood signed the Determination Letter thus approving Daly’s breach of
mandatory duty imposed by Labor Code Section 98.7.
During the litigation of the lawsuit No. 3:16-cv-07414-LB and Appeal No. 1716382, Attorney Ms. Doris Ng provided a defense to both DIR and DIR’s officers Daly,
Healy, Santos, and Rood.
During the litigation of the lawsuit No. RG17881790 and Appeals No. A155165,
A155187, A155899 (consolidated) and A156248, Attorney Mr. Nicholas Seitz provided
defense to DIR.

Page 4 of 16

Legal Standard.
Read Government Code Section 995.2,
“(a) A public entity may refuse to provide for the defense of a civil action or
proceeding brought against an employee or former employee if the public entity
determines any of the following:
(1) The act or omission was not within the scope of his or her employment.
(2) He or she acted or failed to act because of actual fraud, corruption, or
actual malice.
(3) The defense of the action or proceeding by the public entity would create a
specific conflict of interest between the public entity and the employee or former
employee. For the purposes of this section, “specific conflict of interest” means a
conflict of interest or an adverse or pecuniary interest, as specified by statute or bv a
rule or regulation of the public entity.
(b) If an employee or former employee requests in writing that the public entity,
through its designated legal counsel, provide for a defense, the public entity shall, within
20 days, inform the employee or former employee whether it will or will not provide a
defense, and the reason for the refusal to provide a defense.
(c) If an actual and specific conflict of interest becomes apparent subsequent to
the 20-day period following the employee's written request for defense, nothing herein

Page 5 of 16

shall prevent the public entity from refusing to provide further defense to the
employee. The public entity shall inform the employee of the reason for the refusal to
provide further defense.”
My argument. All DIR’s Officers Daly, Healy, Santos, and Rood didn’t act within
their scope of practice during the investigation of my both retaliation and unlawful
termination claim and my wage claim. See my citations of Labor Code Section 98.7(b)
and (e) and my citation of Labor Code Section 98.
Providing defense to Daly, Healy, Rood, and Santos in my lawsuits obviously
created an adverse interest to DIR as created by Government Code Section 3001,
“Any State, county, or city officer who is intoxicated while in discharge of the
duties of his office, or by reason of intoxication is disqualified for the discharge of, or
neglects his duties, is guilty of a misdemeanor. On conviction of such misdemeanor he
forfeits his office, and the vacancy occasioned thereby shall be filled in the same manner
as if the officer had filed his resignation in the proper office.”
Obviously, all DIR’s Officers Daly, Healy, Santos, and Rood neglected their
duties that were imposed by Labor Code Sections 98.7 and 98. These Officers exhibited
actual fraud, corruption, and actual malice.
Therefore, pursuant to Government Code Section 995.2(c), “nothing herein shall
[mandatory - T.D.] prevent the public entity from refusing to provide further defense to
the employee.”
Page 6 of 16

Conclusion.
Pursuant to Government Code Section 995.2(c), DIR was prohibited to provide
legal defense to its employees Daly, Healy, Santos, and Rood in litigations No. 3:16-cv07414-LB, Appeal No. 17-16382, case No. RG17881790, and Appeals No. A155165,
A155187, A155899 (consolidated) and A156248 because providing the legal defense was
in a clear conflict of interest (DIR’s mission, vision, and core values to provide protection
to retaliated and unlawfully terminated California workers), and providing legal defense
to Daly, Healy, Santos, and Rood created an adverse interest to DIR as specified by
Government Code Section 3001.
Therefore, I am respectfully asking the Court of Appeal for the First District,
Division Four to recall its Remittiturs in Appeals No. A155165, A155187, A155899 and
A156248, to withdraw their December 20, 2019 Opinions in these Appeals, and to return
these Appeals back to the Superior Court of Alameda County for a further proceeding.”
However, the Court of Appeal for the First District, Division Four denied my
Motion for Reconsideration. On December 30, 2020, the California Supreme Court
denied my Petition for Review No. S265436.
On October 08, 2020, I filed a lawsuit No. 3:20-cv-07017-WHA Drevaleva v.
Justices of the California Court of Appeal for the First District, Division Four 1) The
Hon. Justice Stuart Poliak, 2) The Hon. Justice Trade Brown, 3) The Hon. Justice Alison
Tucher, 4) The Hon. Justice Jon Streeter at the U.S. District Court for the Northern

Page 7 of 16

District of California which was my Verified Petition for Writ of Mandate, Prohibition,
and Other Appropriate Relief, 28 U.S.C. §1651 (the All Writs Act) and F.R.C.P. Rule 21.
Request to Assign a Three Judge Panel Pursuant to 28 U.S. Code § 2284 (the Three Judge
Court Act.)
On October 13, 2020, the U.S. Supreme Court denied my Petition for Writ of
Certiorari No. 20-5581 and asserted that “The motion for leave to proceed in forma
pauperis is denied, and the petition for a writ of certiorari is dismissed. See Rule 39.8. As
the petitioner has repeatedly abused this Court’s process, the Clerk is directed not to
accept any further petitions in noncriminal matters from petitioner unless the docketing
fee required by Rule 38(a) is paid and the petition is submitted in compliance with Rule
33.1. See Martin v. District of Columbia Court of Appeals, 506 U. S. 1 (1992) (per
curiam).”
On October 15, 2020,1 discovered that the Narayan Travelstead Professional Law
Corporation (the NTPC) that appeared on behalf of client Alameda Health System (AHS)
in multiple lawsuits, Appeals, and Petitions at both the Federal and the State Court
systems, in fact, didn’t have Consent of client AHS for legal representation. I notified
both the Court of Appeal for the First District, Division Four and the California Supreme
Court about it. The NTPC didn’t contest my findings that the NTPC was not authorized
to represent client AHS in any lawsuit, Appeal, and Petition. However, the California
Courts kept ruling in favor of the NTPC, and the Courts kept denying my right for relief.

Page 8 of 16

Afterwards, I attempted three times to file my Petition for Writ of Certiorari No.
20-606 with the Clerk of the U.S. Supreme Court. The Clerk of the U.S. Supreme Court
actually filed my Petition for Writ of Certiorari No. 20-606 only in November 2020.
The Court of Appeal for the First District, Division Four was alerted that the
NTPC was not authorized to represent client AHS in any lawsuit, Appeal, and Petition.
Subsequently, I notified the California Supreme Court that the NTPC was not authorized
to represent client AHS in any lawsuit, Appeal, and Petition. The NTPC didn’t contest
my findings, and the NTPC didn’t oppose my multiple assertions that the NTOC was not
authorized to represent client AHS in any lawsuit.
I informed both the Court of Appeal for the first District, Division Four and the
California Supreme Court that the NTPC had submitted multiple fabricated pieces of
evidence such as the third version of Ms. Littlepage’s email (Exhibit 1), the alleged Letter
of my former Supervisor Mr. Gilbert Harding that accused me in committing medical
negligence towards the patient (Exhibit 2), and a fabricated signature of DIR’s Process
Server Corey Poythress (Exhibit 3.) Please, see a real signature of Corey Poythress that I
obtained from DIR in 2018 (Exhibit 4.) Also, during the litigations of the lawsuits No.
RG19002853 and RG19039413, the NTPC issued multiple false Declarations under the
penalty of perjury and under the laws of the State of California that Defendant AHS has
issued all Public Records that AHS had in its possession, and that AHS didn’t have any
other Public Records to issue (Exhibit 5.) In fact, on March 04, 2019 and on April 24,
2019 the NTPC issued fabricated pieces of evidence that were no way related to any
Page 9 of 16

Public Records from AHS, and Defendant Alameda Health System against whom the
lawsuits No. RG19002853 and RG19039413 (my First and Second Petitions for Writ of
Mandate to Compel AHS to Issue the Improperly Withheld Public Records) were filed
never appeared itself in these lawsuits.
Obviously, the April 24, 2019 Harding’s letter was a fabricated piece of evidence.
In 2020, during the litigation of the lawsuit No. RG19039413, I propounded a Request
for Admission of this letter to the NTPC. On May 29, 2020, the NTPC issued only
objections to each Request for Admission, and the NTPC didn’t admit that Harding’s
letter was genuine (Exhibit 6.)
Because Harding’s location was unknown, I was never able to serve Harding with
a Summons and a Complaint No. RG20061108. I filed Affidavits pursuant to C.C.P.
§415.50 at both the Superior Court of Alameda County and the Court of Appeal for the
First District, Division Four, and I asked the Courts to allow me to serve Harding with a
Summons via the publication in a newspaper. Also, I filed multiple requests at the Court
of Appeal for the First District, Division Four to assist me finding the location of
Harding, to invite Harding to a Courtroom and to ask him to testify whether je wrote the
alleged April 24, 2019 letter, and to invite other Officers of Alameda Health System who
can declare under the penalty of perjury and under the laws of the State of California that
Alameda Health System was responsible itself for every statement that the NTPC
submitted in every litigation, Appeal, and Petition. The Court of Appeal denied all my
requests.
Page 10 of 16

On October 26, 2020, the NTPC appeared on behalf of Defendant Mr. Gilbert
Harding in the lawsuit no. RG20061108 Drevaleva v. Harding that I filed at the Superior
Court of Alameda County in response to the alleged April 24, 2019 Letter of Mr. Harding
that I received from the NTPC.
I unsuccessfully attempted to convince the Superior Court of Alameda County to
revoke the hearing date and the reservation numbers of the NTPC’s Demurrer and motion
to Strike because Defendant Harding against whom the lawsuit No. RG20061108 was
filed was never served with a Summons and a Complaint, because it was obvious that
Harding’s letter was a fabricated piece of evidence, and it was obvious that Harding
himself didn’t know about the existence of this letter, Harding didn’t know about the
existence of the lawsuit no. RG20061108, and Harding didn’t consent to being
represented by the NTPC. The Superior Court of Alameda County refused to revoke the
hearing date and the reservation numbers for the NTPC’s Demurrer and Motion to Strike
in the lawsuit no. RG20071108.
On October 22, 2020, I filed a “VERIFIED PETITION FOR WRIT OF
MANDATE TO COMPEL THE SUPERIOR COURT OF ALAMEDA COUNTY TO
FILE MY REQUEST FOR ENTRY OF DEFAULT IN CASE No. RG20066898 AND
REQUEST FOR AN ORDER THAT DIRECTS THE SUPERIOR COURT OF
ALAMEDA COUNTY NOT TO ACCEPT ANY COMMUNICATION FROM
LAWYERS

OF

THE NARAYAN TRAVELSTEAD PROFESSIONAL

LAW

CORPORATION MR. TRAVELSTEAD AND MR. KU BECAUSE THESE
Page 11 of 16

LAWYERS ARE NOT AUTHORIZED TO REPRESENT CLIENT ALAMEDA
HEALTH SYSTEM IN ANY LAWSUIT, The California Rules of Court, Rule 8.486”,
No. A161187 at the Court of Appeal for the First District, Division Four.
In his Petition, I asked the Court of Appeal to issue an Order that orders the
Superior Court of Alameda County to enter Default against Alameda Health System and
for an Order that directs Clerks and Judicial Officers of the Superior Court of Alameda
County to never accept any Ex Parte communications with the NTPC because the NTPC
was not authorized to represent AHS in any lawsuit.
On October 28, 2020, the Hon. Justice Jim Humes denied my VL-110 form and
asserted that I couldn’t demonstrate that I my Petition had merit.
On October 31, 2020, I filed a “MOTION FOR RECONSIDERATION OF THE
OCTOBER 28, 2020 ORDER OF THE HON. JUSTICE JIM HUMES THAT
CONCLUDED

THAT

I

HADN’T

DEMONSTRATED

A

REASONABLE

POSSIBILITY MY WRIT PETITION HAS MERIT, C.C.P. § 1008(a).”
On November 03, 2020, Justice Humes denied my Motion.
On November 10, 2020,1 filed a “Petition for Writ of Mandate and a REQUEST
FOR A STAY - 1) the hearing date of the NTPC’s Demurrer and Motion to Strike in the
lawsuit No. RG20066898 is January 14, 2020 at 9:00 AM at Department 24, 2) the
hearing date of the NTPC’s Demurrer and Motion to Strike in the lawsuit No.
RG20061108 is December 09, 2020 at 3:00 PM at Department 20”, No. S265490.1 asked
Page 12 of 16

the California Supreme Court to order the Superior Court of Alameda County to revoke
the NTPC’s hearing dates and reservation numbers for the Demurrers and Motions to
Strike in cases No. RG20061108 and RG20066898. Clearly, the Superior Court of
Alameda County lacked jurisdiction over case No. RG20061108 Drevaleva v. Harding
because Harding had not been served with a Summons and a Complaint.
On November 24, 2020, the California Supreme Court denied my VL-110 form
and never allowed me to file my Petition. The California Supreme Court declined to
restrain the NTPC from harassing me and from appearing on behalf of Harding and AHS.
Therefore, I realized that all rulings of the Superior Court of Alameda County, the
Court of Appeal for the First District, Division Four, and the California Supreme Court in
all lawsuits, Appeals, and Petitions against DIR, AHS, and the NTPC were a result of a
criminal conspiracy of Judges and Justices with Defendants DIR, AHS, and the NTPC.
All rulings of all California Courts were aimed to intentionally prevent me from
obtaining relief in a form of getting compensated with my lost salary and benefits as a
result of retaliation and unlawful termination of my employment from Alameda Health
System in 2013. No one decision of any Court was on the merits of my lawsuits. All
decisions were aimed to assist Alameda Health System to steal my salary and benefits
and to assist the NTPC to harass me and to intentionally prevent me from obtaining relief.

Page 13 of 16

Conclusion.
My Petition for Rehearing should be granted because all California Courts knew
that the NTPC was not authorized to represent AHS, and all Courts ruled in favor of DIR,
AHS, and the NTPC with a goal to prevent me from obtaining relief.

Respectfully submitted,

s/ Tatyana Drevaleva
Petitioner-Appellant Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@gmail .com
Date: January 07, 2020

Page 14 of 16

VERIFICATION.
I, a Pro Se Petitioner Tatyana Drevaleva, am a Party to this action. I have read the
foregoing Petition and know its contents. The facts alleged in the Petition are within my
own knowledge and I know these facts to be true.
I declare under the penalty of perjury and under the Federal laws and under the
laws of the State of California that all foregoing is true and correct. Executed at San
Francisco, CA on January 07, 2020.

Respectfully submitted,

s/ Tatyana Drevaleva
Petitioner-Appellant Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@gmail.com
Date: January 07, 2020

Page 15 of 16

Additional material
from this filing is
available in the
Clerk's Office.

A

